Audit Report GR-70-05-013

Cooperative Agreement Administered by Public/Private Ventures, Philadelphia, Pennsylvania

Audit Report GR-70-05-013


May 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Partnership for High-Risk Youth cooperative agreement #2000MUFXK023 awarded by the U.S. Department of Justice (DOJ), Office of Justice Programs (OJP), Office of Juvenile Justice and Delinquency Prevention (OJJDP) to Public/Private Ventures (P/PV).  The purpose of this cooperative agreement is to support and study programs that provide mentoring services for high-risk youths and transition services for juveniles returning from detention facilities.  Between September 2000 and September 2004, P/PV was awarded a total of $11,320,132.

We tested P/PVs accounting records to determine if reimbursements and advances claimed for costs under the cooperative agreement were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the agreement.

Our audit revealed that P/PV did not maintain proper accounting records for agreement expenditures and did not adequately document other agreement activities in the following areas we tested:
(1) expenditures, (2) requests for agreement funding, (3) budgeting, 
(4) reporting, and (5) program assessment.  

P/PV commingled the accounting for agreement expenses with expenses from other funding sources, and this likely contributed to the largest questioned cost of $441,224 for unallowable pre-agreement expenses.  Due to a lack of documentation, we were not able to determine whether P/PV complied with the terms of the cooperative agreement in the areas of requests for agreement funding and budgeting.  P/PV also did not collect the appropriate performance data that would have allowed us to evaluate the extent to which the objectives of projects funded by the agreement were met.  In addition, we concluded that P/PV did not sufficiently monitor the fiscal activities of its subgrantees.

P/PV also made various smaller payments that we determined were unsupportable or unallowable.  They include unsupportable site grant expenses of $4,500; unsupportable conference expenses of $4,312; unsupportable expenses made by a subgrantee totaling $2,064; and unallowable conference expenses of $12,960.  The questioned costs that we have identified for this agreement total $465,060.1
These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I. 




Footnotes

  The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for a definition of questioned costs.